HHS/OIG, Audit - "Follow-up Review of the Aid to Families With Dependent
Children Overpayment Recoveries Collected by Chemung, Erie, Monroe, Nassau, and
Suffolk Counties," (A-02-07-02004)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of the Aid to
Families With Dependent Children Overpayment Recoveries Collected by Chemung,
Erie, Monroe, Nassau, and Suffolk Counties," (A-02-07-02004)
October 22, 2007
Complete
Text of Report is available in PDF format (253 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require States to pursue Aid to
Families with Dependent Children (AFDC) overpayments made prior to October 1,
1996, and make
appropriate refunds to the Federal Government.  This
follow-up report points out that the State agency refunded to the Federal
Government the estimated Federal share of AFDC overpayments totaling $1.8
million recovered by Chemung, Erie, Monroe, Nassau, and Suffolk Counties (the
local districts) during the period December 1, 1996, through April 30, 2002, as
recommended in our prior report (A-02-02-02001).  However,
the State agency did not implement our recommendation to ensure that the Federal
share of AFDC overpayment recoveries collected by the local districts subsequent
to April 30, 2002, were returned to the Federal Government in a timely manner.
As a result, the State agency did not refund the estimated Federal share of AFDC
overpayments totaling $347,375 recovered by the local districts during the
period May 1, 2002, through January 31, 2007.  We recommended that the
State agency (1) refund $347,375 to the Federal Government and (2) ensure that
the Federal share of AFDC overpayment recoveries collected by the local
districts subsequent to January 31, 2007, are refunded to the Federal Government
in a timely manner.  State agency officials did not dispute the estimate of $347,375 to the Federal
Government.